OFFICE OF INSPECTOR GENERAL



AUDIT OF USAID/MALAWI’S
IMPLEMENTATION OF THE
PRESIDENT’S EMERGENCY
PLAN FOR AIDS RELIEF
AUDIT REPORT NO. 4-612-07-011-P
September 21, 2007




PRETORIA, SOUTH AFRICA

Office of Inspector General


September 21, 2007

MEMORANDUM

TO:                  USAID/Malawi Mission Director, Curt Reintsma
                     USAID/Southern Africa Mission Director, Carleene Dei

FROM:                Regional Inspector General/Pretoria, Nathan S. Lokos /s/

SUBJECT:             Audit of USAID/Malawi’s Implementation of the President’s Emergency Plan for
                     AIDS Relief (Report No. 4-612-07-011-P)

This memorandum transmits the Office of Inspector General’s final report on the subject audit.
In finalizing this report, we considered management comments on the draft report and have
included those comments in their entirety in Appendix II.

The report includes five recommendations to USAID/Malawi and one recommendation to
USAID/Southern Africa to assist USAID/Malawi in improving its efforts to provide proper
accountability for its Emergency Plan activities. In responding to the draft report, USAID/Malawi
concurred with Recommendations No. 1, 2, 3, 4, and 5, and provided plans in response to these
recommendations. Accordingly, management decisions have been reached on
Recommendations No. 1, 2, 3, 4, and 5.

The report also includes Recommendation No. 6, which recommends that USAID/Southern
Africa request a decision from USAID’s Office of Acquisition and Assistance Policy Division as
to whether agreements predating June 2006 should be amended to include the mandatory
standard provision addressing equal protection of the law for faith-based and community
organizations. If required, all applicable existing awards should be amended to include this
provision. We request that USAID/Southern Africa provide information concerning actions taken
to implement Recommendation No. 6 within 30 days of the date of this memorandum.

I sincerely appreciate the cooperation and courtesy extended to my staff during this audit.




U.S. Agency for International Development
100 Totius Street
Groenkloof X5
Pretoria 0181, South Africa
www.usaid.gov
CONTENTS

Summary of Results ....................................................................................................... 1 


Background ..................................................................................................................... 2 


Audit Objective .................................................................................................................. 3 


Audit Findings ................................................................................................................. 4 


     Performance Management Plan Should
     Be Updated Comprehensively .................................................................................... 6 


     Data Quality Should Be Improved ............................................................................... 7 


     Required Standard Provisions For
     Faith-Based Organizations Are Lacking...................................................................... 9 


Evaluation of Management Comments ....................................................................... 12 


Appendix I – Scope and Methodology ........................................................................ 14 


Appendix II – Management Comments ....................................................................... 16 


Appendix III – Table A-1. Summary of Reviewed Results ......................................... 20 

SUMMARY OF RESULTS

The Regional Inspector General/Pretoria, as part of a series of audits by the Office of
Inspector General, conducted this audit to determine whether USAID/Malawi’s
President’s Emergency Plan for AIDS Relief (PEPFAR, the Emergency Plan) prevention,
care, and treatment activities achieved planned results in its grants, cooperative
agreements, and contracts (see page 3).

Out of seven activity-level results reviewed, USAID/Malawi’s Emergency Plan
prevention, care, and treatment activities have achieved five planned results. We were
not able to determine whether the other two planned results were achieved because of
the Mission partners’ unreliable data for these results (see page 4).

Because Emergency Plan reporting for Malawi did not begin until 2006, it is too early to
determine the impact of the Emergency Plan intervention. The available data cannot yet
be used to evaluate the degree to which the Emergency Plan intervention is resulting in
a positive impact on the fight against HIV/AIDS in Malawi. For data collected for
HIV/AIDS activities before the Emergency Plan reporting (between 2000 and 2005), a
Malawi National AIDS Commission study indicated that the HIV prevalence rate appears
to be decreasing primarily in semiurban areas, although no concurrent decrease is
apparent in urban and rural areas. Because most of the population in Malawi is rural, this
could mean an overall increase in HIV infection in the coming years (see page 4).

The audit identified the following areas in the Mission’s Emergency Plan activities that
needed strengthening: (1) The Mission’s Performance Management Plan (PMP) did not
fully reflect the Emergency Plan activities reported in the Performance Accountability
Report (see page 6). (2) The Mission needs to improve the data quality of its Emergency
Plan results (see pages 7 to 9). (3) The standard provision on equal protection of the law
for faith-based and community organizations was omitted from most of the acquisition
and assistance instruments (see pages 9 to 11).

This report includes five recommendations to assist USAID/Malawi in improving its
efforts to provide proper accountability for its Emergency Plan activities. Specifically,
USAID/Malawi needs to (1) update its PMP to fully reflect the relevant Emergency Plan
activities and set new baselines for its indicators; (2) develop a formal procedure for
reviewing and providing prompt feedback of quarterly reports, and for following up with
partners to ensure that corrective actions are taken related to data quality; (3) establish
plans to conduct regular site visits of partners’ activities and validate Emergency Plan
partners’ data during those site visits; (4) conduct data quality assessments for
Emergency Plan indicators, including verification of partners’ field data; and (5) review
the data-collecting methodology of its Emergency Plan partners and restate the actual
data for FY 2006 accordingly (see pages 7 to 9).

This report also includes one recommendation that USAID/Southern Africa request a
decision from USAID’s Office of Acquisition and Assistance Policy Division as to whether
agreements predating June 2006 should be amended to include the mandatory
standard provision addressing equal protection of the law for faith-based and
community organizations (see page 11).

Management’s comments are included in their entirety in Appendix II.

                                                                                         1
BACKGROUND

Recognizing the global HIV/AIDS pandemic as one of the greatest challenges of our
time, Congress enacted legislation to fight HIV/AIDS internationally through the
President’s Emergency Plan for AIDS Relief (PEPFAR, the Emergency Plan)—the
largest international health initiative in history by one nation to address a single disease.
The $15 billion, 5-year program provides $9 billion in new funding to speed up
prevention, care, and treatment services in 15 focus countries.1 The Emergency Plan
also devoted $5 billion over 5 years to bilateral programs in more than 100 nonfocus
countries and increased the U.S. pledge to the Global Fund by $1 billion over 5 years.2
On May 30, 2007, the President announced his intention to triple the initial $15 billion
commitment. If this new funding is approved, the American people will provide $48.3
billion over 10 years to fight HIV/AIDS.3

Starting in fiscal year (FY) 2006, Malawi was categorized as one of the Emergency
Plan’s nonfocus countries receiving more than $10 million yearly and was, therefore,
required to report its results to the Office of the U.S. Global AIDS Coordinator (OGAC).
According to the Emergency Plan’s country profile, approximately 940,000 people below
the age of 50 were living with HIV/AIDS in Malawi, and the adult prevalence rate was
14.1 percent by the end of 2005. Women are disproportionately affected by the
epidemic. In 2005, approximately 500,000 women ages 15 years and older were living
with HIV/AIDS. The primary mode of HIV transmission is unprotected heterosexual sex.
The second major mode of HIV transmission is mother-to-child transmission, accounting
for approximately 83,000 pediatric HIV infections in 2005.

The Mission reported that it has obligated $10.2 million of FY 2005 funds for HIV/AIDS
prevention, care, and treatment programs in Malawi for FY 2006. The program was
based on the following:

    •	 Supporting comprehensive services at the community level via capacity
       development
    •	 Engaging civil society through subgrants
    •	 Supporting scale-up and rollout of key HIV/AIDS activities

USAID/Malawi’s partners and subpartners were engaged in the following:

    •	 Prevention. Working with religious leaders and existing community structures
       such as chiefs’ councils, women’s guilds, and networks of traditional initiators4 to
       strengthen their capacity to implement effective behavior change interventions.
       Partners and subpartners produced communications and media outreach

1
  Twelve countries in Africa (Botswana, Côte d’Ivoire, Ethiopia, Kenya, Mozambique, Namibia, 

Nigeria, Rwanda, South Africa, Tanzania, Uganda, and Zambia) and three other countries

(Guyana, Haiti, and Vietnam). 

2
  The Global Fund is a public-private partnership that raises money to fight AIDS, tuberculosis,

and malaria. 

3
  With enactment of the President’s FY 2008 request for the first 5 years of the Emergency Plan, 

the total commitment will be $18.3 billion—exceeding the original 5-year, $15 billion commitment.
4
  Traditional initiators provide counseling to girls when they reach puberty.


                                                                                               2
      materials and undertook prevention outreach activities that emphasized
      abstinence and behavior change, including getting tested for HIV.
   •	 Care. Focusing on palliative care as well as care and support for orphans and
      vulnerable children (OVC).
   •	 Treatment. Providing technical assistance to the Ministry of Health for the scale­
      up of antiretroviral (ARV) drug treatment.




Photograph of a community volunteer training OVCs on sewing. The program, funded by USAID, 

generates income for the OVCs. 

Source: Photograph taken in Bangwe, Malawi, by a RIG/Pretoria auditor in May 2007. 




AUDIT OBJECTIVE
This audit was conducted at USAID/Malawi as part of the Office of Inspector General’s
ongoing efforts to report on the Agency’s progress in implementing the President’s
Emergency plan for AIDS Relief. This is one in a series of audits of the Emergency
Plan’s nonfocus countries. The audit was conducted to answer the following question:

   Did USAID/Malawi’s Emergency Plan prevention, care, and treatment activities achieve
   expected planned results in its grants, cooperative agreements, and contracts?

Appendix I contains a discussion of the audit’s scope and methodology.




                                                                                           3
AUDIT FINDINGS

USAID/Malawi’s Emergency Plan prevention, care, and treatment activities have
achieved five of seven planned activity-level results reviewed in its cooperative
agreements. Because USAID/Malawi’s Emergency Plan reporting did not start until FY
2006, relevant data are not available to determine the achievement of higher-level
results at this time.

Activity-level Results

USAID/Malawi’s President’s Emergency Plan prevention, care, and treatment activities
have achieved five of the seven planned activity-level results reviewed. For the
remaining two planned results, we could not determine whether the intended results
were achieved because of the Mission partners’ unreliable data. Pages 7 to 9 of this
report contain a detailed discussion of the data quality issues encountered for these two
indicators. (See Appendix III for details of the reviewed results.)

Higher-level Results

The Mission reports the results of goal and Strategic Objective (SO) indicators, which
measure the impact of various health interventions on Malawi’s society. HIV prevalence
rate, contraceptive prevalence, and condom use at last risky sex are the indicators
tracked by the Mission for HIV/AIDS. The data source for the prevalence rate is the
Ministry of Health Biannual Health Survey. The latest data available are from the 2004
survey, because the results of the 2006 survey will not be available until near the end of
calendar year 2007. The data source for the other indicators is the Malawi Demographic
and Health Survey, which is conducted every 4 years. The latest data available for these
indicators are from 2004. Because Emergency Plan reporting did not begin until FY 2006
and the latest available reported data were for FY 2004, the above indicators cannot be
used to assess progress at the goal and SO levels.

Although we could not use the above indicators, a Malawi triangulation project5
organized by the Malawi National AIDS Commission presents higher-level results for the
previous HIV/AIDS interventions. The project indicated a decline in the HIV epidemic in
Malawi and an increase in the reach and intensity of prevention efforts from 2000 to
2005. However, HIV prevalence appears to be decreasing primarily in semiurban areas,
and no simultaneous decrease is apparent in urban and rural areas. Moreover,
according to this study, any declines in HIV prevalence appear to be recently slowing.
The majority of Malawians reside in rural areas, and the report states that a relative shift
in the epidemic toward rural areas may ultimately spell an increase in HIV infections
overall. The findings of this project suggest that a more intense intervention is needed to
curb such a trend.




5
  Triangulation is the synthesis of data from multiple sources to strengthen understanding of
complex health issues and make evidence-based health decisions. More than 100 independent
sources of information on the HIV epidemic in Malawi were used, including surveillance data,
research studies, and programmatic reports.


                                                                                           4
Photograph of youth during a coeducational USAID-funded extracurricular program organized by
community volunteers to promote abstinence and free dialog on HIV/AIDS between the sexes.
Source: Photograph taken in Mangochi, Malawi, by a RIG/Pretoria auditor in May 2007.

FY 2006 is the first year the Mission started compiling data for the Emergency Plan
indicators; however, the activities were being implemented under cooperative
agreements with its HIV/AIDS partners, which had begun before the Mission became
subject to the Emergency Plan reporting requirements. The partners were instructed to
identify the relevant activities that could provide data for the Emergency Plan and to
continue their data collection efforts for the activities that related to the Emergency Plan.
Overall, the SO Team considers the transition to have gone smoothly. However, the
Mission’s Performance Management Plan (PMP) should be updated to reflect the
Mission’s Emergency Plan activities that are reported in USAID’s Performance and
Accountability Report. In addition, although the Mission has received Office of the U.S.
Global AIDS Coordinator (OGAC) guidelines for data collection and reporting, it has not
reviewed its partners’ quarterly reports thoroughly to determine whether the proper data
definitions were followed, resulting in some data quality issues for the FY 2006 reporting.
Finally, the Mission did not include the standard provision addressing equal protection of
the law for faith-based and community organizations in all acquisition and assistance
instruments. The subsequent sections discuss these issues in detail.




                                                                                               5
The Performance Management Plan
Should Be Updated Comprehensively

     Summary: The PMP for the Mission’s Strategic Objective 8 (SO8) is updated
     yearly; however, it does not fully reflect all of the Mission’s relevant activities as a
     nonfocus Emergency Plan country—contrary to the Automated Directives System
     (ADS) requirement for a relevant PMP for all SOs. According to the Mission,
     updating the PMP fully to reflect the Emergency Plan indicators has been gradual
     because of staff shortages. Without a PMP that addressed all the Emergency Plan
     activities, the Mission did not have assurance that it had been maintaining the
     elements that are essential to the operation of a credible and useful performance-
     based management system.

USAID’s ADS 203.3.4.6 states that “(u)sually as part of the Operating Unit’s Annual
Portfolio Review process, Operating Units should update PMPs regularly with new
performance information as programs develop and evolve.” The ADS further states that
performance baselines are needed to set targets for performance indicators after the
implementation of USAID-supported activities that contribute to the achievement of the
relevant result (see ADS 203.3.4.5).

Although the Mission began compiling HIV/AIDS data for Emergency Plan reporting,
using Emergency Plan indicators to track all HIV/AIDS activities and report on those
indicators to USAID headquarters and beyond, those reported indicators were not fully
reflected in the SO8 PMP, as required.6 For example, although some of the indicators
are similar to those of the Emergency Plan, the definitions in the PMP indicator
reference sheets differ from those of the Emergency Plan. Furthermore, even though
targets were set for the Emergency Plan indicators—including those reported in USAID’s
Performance and Accountability Report—starting in FY 2006 and beyond, the available
baselines in the PMP for setting targets were at least 2 years old. As a result, the current
PMP lacks a complete set of relevant indicators that reflect the Emergency Plan
activities and useful baselines for setting targets.

USAID/Malawi has recognized the above limitations in the PMP and stated that the lack
of baselines had resulted in low targets for the first year. The Mission has further stated
that the PMP has not been updated because of a shortage of staff to work on a
comprehensive update.

Without a fully updated PMP, USAID/Malawi has lacked a critical tool for planning,
managing, and documenting data collection for the Emergency Plan. The absence of a
PMP that fully addresses Emergency Plan activities has resulted in: 1) the Mission not
having accurate baselines and reasonable targets, which are essential to the operation
of a credible and useful performance-based management system and 2) understated
targets for the first-year results of the Emergency Plan reporting. Although the Mission’s
targets for its Emergency Plan indicators were updated in the FY 2007 Country
Operational Plan (COP) for Malawi, its PMP and baselines are still awaiting revision.



6
    The PMP was last updated in August 2006.


                                                                                                6
The Office of Inspector General makes the following recommendation to address this
situation:

   Recommendation No. 1: We recommend that USAID/Malawi update its
   Performance Management Plan to fully reflect the relevant activities being carried
   out under the President’s Emergency Plan for AIDS Relief and establish new
   baselines for its indicators.

Data Quality Should
Be Improved

  Summary: Some of the results data reported for FY 2006 do not meet USAID’s
  data quality standards. USAID’s policy requires that for data to be useful in
  managing for results and credible for reporting, they should maintain certain
  standards of quality. The Mission did not review its partners’ quarterly reports
  thoroughly to determine whether the proper data definitions were followed and did
  not conduct the proper data quality assessment for the Emergency Plan data
  reported for FY 2006. As a result, the Mission’s reported data contained numerous
  errors, and USAID managers did not have complete and sound data to make
  decisions related to Emergency Plan activities.

The Mission reported that targets were reached for all seven results reviewed for FY
2006 Emergency Plan indicators. However, the data for two of the results actually
included information that predated FY 2006. In addition, the data supporting these two
results included data collected from both Emergency Plan and non–Emergency Plan
activities, including some from sources other than USAID. This is contrary to the
Emergency Plan’s guidance of reflecting the results obtained through Emergency Plan
intervention. Furthermore, in reporting palliative care data, one subpartner used
counseling and testing data, assuming the same data definition applied for both. These
inconsistencies occurred despite the Mission’s instructions to partners regarding the
requirement to collect annual data and distinguish between the data definitions of
different indicators.

According to ADS 203.3.5.1, for data to be useful in managing for results and credible
for reporting, Operating Units should ensure that the performance data in the PMP for
each SO meet the five data quality standards of validity, integrity, precision, reliability,
and timeliness. In some cases, performance data will not fully meet all five standards,
and—in such cases—the known data limitations should be documented. The same data
quality standards cover quantitative and qualitative performance data.

Guidance on Data Definitions Was Not Followed. In addition to being provided with
new Emergency Plan indicators, the Mission’s partners were instructed to review their
existing indicators and identify those that could be used to report Emergency Plan
results. The Mission provided those partners with OGAC guidelines, which were to be
used to establish consistent data definitions for all partners. They further communicated
the requirements of the guidelines through meetings as well as providing forms to the
partners for collection of data. Finally, Mission officials stated that they followed up orally
with certain partners to ensure the proper reporting of the data. Despite these efforts,
however, the following problems were noted with certain aspects of the reported data:


                                                                                             7
    •	 Certain partners continued reporting data cumulatively for the life of the project
       as they had done before the Emergency Plan, instead of reporting annual data
       as instructed by the Mission.
    •	 One of the subpartners used the same result for two different indicators—
       erroneously concluding that the same data definition applied to both.

Although the Mission had received the data on quarterly reports provided by the
partners, it had not reviewed those reports thoroughly enough to determine whether the
data were compiled properly and the proper data definitions were followed.

Data Quality Assessment Needs to Trace Data to the Field Level. The Mission’s
August 2006 PMP update states that USAID/Malawi employs various procedures to
assess data quality. For example, according to the Mission—

    •	 The SO Team reviews reports from partners and determines that they are
       sufficiently consistent to be considered reliable.
    •	 Site visits, which include verification of appropriate reports, are performed to spot
       check reliability.

In March 2007, the Mission, with assistance from USAID/Southern Africa,7 conducted a
high-level data quality assessment for the indicators reported in the Malawi Emergency
Plan COP for FY 2006. However, this assessment focused on the ADS requirements for
data assessments of Mission-generated data. The Mission was not aware of the
additional requirements for assessments of data provided by implementing partners.
ADS 203.3.5.3 states that, in conducting a data quality assessment, data from
implementing partners’ records from the central office should be compared with the
records kept at field sites. Such comparison would have identified some of the data
quality issues that could not be identified through a desk review of the quarterly reports.
Although data quality assessments do not have to be cost-intensive and elaborate field-
based exercises, at a minimum, they should be sufficient to detect readily apparent data
collection flaws at the field level. In addition, the Mission’s partners have indicated that
the Mission’s activity managers were not conducting site visits, which could have
included verification of data. Mission management acknowledged the need to conduct
more site visits of its activities and is examining ways to resolve its current operating
expense budget shortfall, which has affected its ability to conduct the site visits needed
to properly monitor its partners’ activities.

The failure of all partners and subpartners to effectively apply the data collection and
reporting guidance provided by the Mission has resulted in reporting that does not
accurately reflect the achievements of the Emergency Plan. Moreover, the absence of a
complete and thorough data quality assessment resulted in the Mission’s inability to
recognize that data definitions were not being properly applied.

A results-oriented management approach relies on USAID/Washington and field
managers using performance information to make decisions. Quality performance
indicators and data (1) ensure that USAID program and budget decisions are as well
informed as possible; (2) support efficient use of USAID resources; and (3) address the
information needs of USAID’s internal and external users, including senior management,
7
  USAID/South Africa was recently renamed USAID/Southern Africa. The assisting team
included Regional HIV/AIDS Program staff and Program and Project Development office staff.


                                                                                             8
Office of Management and Budget, and Congress. However, sound decisions require
valid, current, and reliable information. The benefits of this results-oriented approach
substantially depend on the quality of the performance information available. In the
absence of a proper data quality assessment of Emergency Plan data, the Mission does
not have reasonable assurance that its data meet quality, validity, precision, timeliness,
and reliability standards—the lack of which could negatively affect decision making.

To ensure that future data meet the quality standards, the Office of Inspector General
makes the following recommendations:

   Recommendation No. 2: We recommend that USAID/Malawi develop formal
   procedures for (a) reviewing and providing prompt feedback concerning quarterly
   reports and (b) following up with partners to ensure that corrective actions are
   taken related to data quality.

   Recommendation No. 3: We recommend that USAID/Malawi establish a plan to
   conduct regular site visits of partners’ activities and validate the President’s
   Emergency Plan for AIDS Relief partners’ data during those site visits.

   Recommendation No. 4: We recommend that USAID/Malawi conduct data quality
   assessments for its Emergency Plan indicators, including verification of partners’
   field data.

   Recommendation No. 5: We recommend that USAID/Malawi (a) review the data-
   collecting methodology of its Emergency Plan partners, (b) recalculate the actual
   data for fiscal year 2006, as necessary, and (c) restate these amounts in its fiscal
   year 2007 Emergency Plan Annual Report.

Required Standard Provisions For
Faith-Based Organizations Are Lacking

 Summary: ADS 303 requires the inclusion of the standard provision for equal
 protection of the law for faith-based and community organizations in all acquisition
 and assistance instruments. However, this standard provision is included in only one
 of the four cooperative agreements reviewed. USAID/Malawi was relying on the
 contracting office at USAID/Southern Africa to ensure that all necessary
 requirements were incorporated into these instruments; however, USAID/Southern
 Africa lacked the proper controls to ensure that all standard provisions were
 included. As a result, the Mission cannot be certain that its partners and their
 subpartners know the requirement for the equal treatment of faith-based
 organizations or whether that requirement is being properly implemented.

Acquisition and Assistance Policy Directive (AAPD) 04-08, “Ensuring Equal Opportunity
for Faith-Based and Community Organizations,” was issued on June 29, 2004, and
initiated the implementation of the requirements of Executive Order 13279. This AAPD
required all USAID requests for applications to include, or be amended to include, a
survey on ensuring equal opportunity for applicants. Subsequently, USAID amended the
ADS to incorporate more proactive measures concerning equal protection. The revised
ADS included clauses providing for such equal protection into the mandatory standard


                                                                                          9
provisions incorporated into USAID acquisition and assistance instruments with both
U.S. and non-U.S. nongovernmental recipients (ADS 303.4.2.u and 303.4.2.v,
respectively). The Provisions for Non-U.S. Nongovernmental Recipients provide equal
protection of the law for faith-based and community organizations, stating that—

•	 The recipient may not discriminate against any beneficiary or potential beneficiary
   under this award on the basis of religion or religious belief. Accordingly, in providing
   services supported in whole or in part by this agreement or in its outreach activities
   related to such services, the recipient may not discriminate against current or
   prospective program beneficiaries on the basis of religion, a religious belief, a refusal
   to hold a religious belief, or a refusal to actively participate in a religious practice.
•	 The Federal Government must implement Federal programs in accordance with the
   Establishment Clause and the Free Exercise Clause of the First Amendment to the
   Constitution. Therefore, if the recipient engages in inherently religious activities, such
   as worship, religious instruction, and proselytization, it must offer those services at a
   different time or location from any programs or services directly funded by this
   award, and participation by beneficiaries in any such inherently religious activities
   must be voluntary.
•	 If the recipient makes subawards under this agreement, faith-based organizations
   should be eligible to participate on the same basis as other organizations and should
   not be discriminated against on the basis of their religious character or affiliation.

This standard provision was included in only one of the four awards that we reviewed
and was not included in any of the related subawards. The three awards without the
provisions received 84 percent of the Emergency Plan funding for FY 2006 activities.




Photograph of an HIV/AIDS counseling session at a USAID-supported voluntary counseling and testing

program in an Adventist hospital, Malamulo, Malawi. 

Source: Photograph taken by a RIG/Pretoria auditor in May 2007. 




                                                                                                  10
USAID/Malawi relied on its contracting office at USAID/Southern Africa Mission in
Botswana8 to ensure that all required standard provisions were included in agreements,
contracts, and grants; however, USAID/Southern Africa Mission in Botswana lacked the
proper controls to ensure that all standard provisions were included.

As a result of this situation, the Mission cannot be certain that its partners know the
requirement for faith-based organizations and that these partners are passing it on to
their faith-based subawardees. To ensure equal protection, the Office of Inspector
General makes the following recommendation:

    Recommendation No. 6: We recommend that USAID/Southern Africa (a)
    request a decision from USAID’s Office of Acquisition and Assistance Policy
    Division as to whether agreements predating the June 2006 change to the ADS
    should be amended to include the mandatory standard provision addressing
    equal protection of law for faith-based and community organizations and (b) as
    necessary, amend all agreements to include this mandatory standard provision.




8
  Effective September 16, 2007 the regional contracting office formerly located at
USAID/Southern Africa Mission in Botswana merged with USAID/South Africa in Pretoria. The
merged mission is now known as USAID/Southern Africa.


                                                                                      11
EVALUATION OF
MANAGEMENT COMMENTS
In responding to the draft report, the Mission concurred with Recommendations No. 2, 3,
4, and 5 and provided plans in response to the recommendations. The Mission also
concurred in principle with Recommendation No. 1 and suggested an alternative
approach to meeting the intent of this recommendation. The Mission’s comments and
our evaluation of those comments are summarized below.

The Mission concurred in principle with Recommendation No. 1, agreeing on the need to
update and enhance its overall performance management systems. The Mission has
proposed incorporating the Annual Emergency Plan Report/Country Operational Plan as
an annex to the Mission’s Performance Management Plan (PMP) and has set a target
completion date for doing so. Because this action will incorporate USAID/Malawi’s
Emergency Plan indicators, targets and baselines into its PMP, we consider that a
management decision has been reached for this recommendation.

In response to Recommendation No. 2, which suggests developing formal procedure for
review and feedback of quarterly reports, and following up with partners to ensure that
corrective actions are taken related to data quality, the Mission concurred by instituting
procedures for reviewing quarterly reports, providing feedback to partners and ensuring
that corrective actions are taken verifying data in the semiannual and annual reports.
Furthermore, the procedures are to be put in writing and training is to be conducted on
the procedures by December 2007. As such, we consider that management decision is
reached for this recommendation.

For Recommendation No. 3, which suggests establishing a plan to conduct regular site
visits of partners’ activities and validate Emergency Plan data, the Mission responded
affirmatively by stating that the Mission will prepare a schedule of site visits to validate
partners’ data by the end of November 2007. In addition, the Mission set milestones for
activities that will facilitate data validation such as in-house training on such validation.
We consider Recommendation No. 3 as having reached a management decision.

Recommendation No. 4 pointed out the need for data quality assessments and
verification of partners’ field data. The Mission agreed and set a plan and completion
date for performing a Mission-wide data quality assessment. A management decision
has been reached for this recommendation.

For Recommendation No. 5, the Mission agreed to review the data-collecting
methodology of its partners in conjunction with the site visits to be scheduled in
response to Recommendation No. 3 and to restate any erroneous data reported for FY
2006. These restated amounts would be included in the Mission’s FY 2007 Emergency
Plan Annual Report.      A management decision has been reached for this
recommendation.

In relation to Recommendation No. 6, the USAID/Southern Africa Mission in Botswana
stated that although the equal protection of the law for faith-based and community



                                                                                          12
organizations provision was written in February 2004, it was not included in USAID’s
Automated Directives System (ADS) until June 2006 and, as a result, the
USAID/Southern Africa Mission in Botswana did not include the provision in acquisition
and assistance instruments until after its inclusion in the ADS. Furthermore,
USAID/Southern Africa Mission in Botswana management stated that they have not
received instructions about amending existing awards.

Nevertheless, the changes to the mandatory standard provisions incorporated into
USAID agreements with NGOs that were ultimately included in the ADS were
significantly more proactive than the requirements of the original AAPD. While the
original AAPD only required that a survey on ensuring equal opportunity for applicants
be included in USAID requests for applications, the subsequent ADS revisions require
the inclusion of a provision in all agreements with NGOs that prohibit those NGOs from
discriminating against any beneficiary or potential beneficiary under the USAID award on
the basis of religion or religious belief.

Considering the significantly more proactive stance taken by USAID in its revision of the
ADS, we are recommending that USAID/Southern Africa request a decision from
USAID’s Office of Acquisition and Assistance Policy Division as to whether awards
predating the ADS change must be amended to include this provision and that the
Mission amend all applicable awards.

The Mission’s comments are included in their entirety in Appendix II.




                                                                                      13
                                                                                   APPENDIX I 




SCOPE AND METHODOLOGY

Scope

This audit was made in accordance with generally accepted government auditing
standards. The Regional Inspector General/Pretoria conducted the audit to determine
whether USAID/Malawi’s Emergency Plan prevention, care, and treatment activities
achieved expected planned results in its grants, cooperative agreements, and contracts.
The audit was conducted at USAID/Malawi in Lilongwe, Malawi; at selected sites
throughout Malawi; and through e-mail and telephone follow-up of fieldwork from May 8
through June 18, 2007.

In planning and performing the audit, the audit team assessed the Mission’s management
controls related to the Emergency Plan. The management controls identified included the
Mission’s Annual Report, the Mission’s data quality assessments, the Mission’s annual self-
assessment of management controls as required by the Federal Managers’ Financial
Integrity Act, trip reports to document field visits by the cognizant technical officers, program
progress reports, and day-to-day interaction between Mission staff and program
implementers.

To observe the Emergency Plan activities and to determine whether targets were achieved,
the audit team interviewed the management of four partners and reviewed pertinent
documents, amounting to 77 percent of the $10.2 million FY 2005 Emergency Plan funding
obligated for fiscal year (FY) 2006 activities. For the partners reviewed, the team conducted
site visits at 18 selected subrecipient sites in the capital Lilongwe and various sites
throughout the country to verify and test data quality, observe program activities, and
examine the quality of indicators.

The scope of this audit included USAID/Malawi’s Emergency Plan activities carried out
during FY 2006. The planned activities were selected from the universe of Emergency
Plan–funded activities being conducted by USAID/Malawi.

Methodology

To answer the audit objective, the audit team met with the USAID/Malawi Health,
Population, and Nutrition Strategic Objective Team to gain an understanding of the subject
matter. The audit team reviewed relevant documentation related to the Emergency Plan,
such as cooperative agreements and contracts, including contract amendments and
addendums, Mission correspondence, internal worksheets used to measure results, the
Mission Performance Management Plan, quarterly and annual reports, and field trip
reports.

The audit team interviewed recipient and subrecipient officials responsible for Emergency
Plan monitoring and implementation. The team reviewed pertinent documents, including,
but not limited to, trip reports and quarterly reports. The reports helped the team identify the
levels of monitoring being carried out and determine whether progress toward planned
results had been achieved. In addition, 18 site visits were conducted to observe operations
at various recipient and subrecipient sites. In part, these site visits included testing data
found in progress reports and annual reports and observing program operations.


                                                                                              14
                                                                                   APPENDIX I 




The audit team identified higher-level results that could show the impact of various
Emergency Plan activities coordinated by USAID/Malawi. From these results, three
indicators reflected the impact of HIV/AIDS interventions with data provided by the
Government of Malawi. However, the data were not available for the Emergency Plan
activities that commenced in FY 2006. As an alternative, the team used results from a
Malawi triangulation project to assess higher-level results for HIV/AIDS intervention before
Emergency Plan reporting was enacted.

Concurrently, the audit team judgmentally selected seven activity-level annual results, three
each from prevention and care activities. The team also included the only treatment result
that is attributable to USAID/Malawi and compared the percentage of the targets with the
audit threshold criteria to determine whether planned results were achieved. The
materiality threshold criteria were as follows:

    •	 If at least 90 percent of the selected key result was achieved,9 the answer to the
       audit objective would be positive.

    •	 If at least 80 percent but less than 90 percent of the selected key result was
       achieved, the answer to the audit objective would be qualified.

    •	 If less than 80 percent of the selected key result was achieved, the answer to the
       audit objective would be negative.

For prevention and care results, activity-level data were selected from data provided by
the three partners who contributed to the indicators selected for testing. Through review
of the data quality controls of the three partners, the scope of data testing was
determined. The audit team judgmentally selected 13 sites from a total of 30 sites that
contributed to selected indicators. For the treatment result, the team tested 100 percent
of the records, as the data were minimal and readily available. The actual testing for
activity-level results consisted of comparing and tracing the reported information to
supporting source documentation such as logbooks, daily diaries, monthly reports, and
program operation observations.




9
 The audit team considered a result to be achieved if the partner completed at least 90 percent of
the expected (planned) result.


                                                                                               15
                                                                              APPENDIX II




MANAGEMENT COMMENTS


AUDIT REPORT NO. 4-612-07-XXX-P July XX, 2007 MEMORANDUM


TO:            Regional Inspector General/Pretoria, Nathan Lokos
               USAID/Southern Africa, Mission Director, Erna Kerst

From:          USAID/Malawi, Mission Director, Curt Reintsma

Date:          August 22, 2007

SUBJECT:       Mission response to the draft audit of USAID/Malawi's Implementation of
               the President's Emergency Plan for AlDS Relief (Report No. 4-612-07­
               xxx-P)

This memorandum transmits USAID/Malawi comments on the draft report on the subject
audit as requested in your memorandum of July 25,2007, and the subsequent email
exchange granting a one-week extension to respond. USAID/Malawi's comments are
keyed to the five recommendations for USAID/Malawi. In additional, we are transmitting
the response by USAID/Southern Africa to recommendation number six, related to
establishing controls for assuring that all required standard provisions are included in
acquisition and assistance instruments. In this memo, USAID Malawi states its views on
each recommendation, and provides a detailed explanation when needed.

Recommendation No. 1: We recommend that USAID/Malawi update its
performance management plan to fully reflect the relevant activities being carried
out under the President's Emergency Plan for AlDS Relief and establish new
baselines for its indicators.

USAID/Malawi agrees with the need to update and enhance its overall performance
management systems (including the PMP), and has already begun to do so for all
sectors, including the health sector and PEPFAR funded activities. At the same time,
USAID/Malawi is also concerned about avoiding wasteful duplication of effort, and using
valuable staff time in ways that are not cost effective. Upon further reflection, discussion
and research; it has been noted that all indicators for PEPFAR that would be reported in
the PMP are already covered under the Emergency Plan's Annual Report and Country
Operational Plan. These documents also set new baselines, as requested in the second
part of this recommendation.

Therefore, rather than update the PMP document itself to reflect PEPFAR activities (a
significant duplication of effort in our view), USAID/Malawi believes that the same
outcome can be achieved more cost effectively by treating the Annual Report/COP as an



                                                                                         16
                                                                               APPENDIX II


annex to the mission's PMP, and using the Annual Report/COP to fully monitor the
performance of the PEPFAR activities. The incorporation of the PEPFAR Annual
Report/COP as an annex to the mission's updated PMP will be completed by end of
November, 2007. This will avoid duplication of effort, since under this approach we will
not have to repeat the same information and processes in both documents.

As a footnote, USAID/Malawi believes that the basic issue that may be creating
confusion is that the Agency is currently operating in the transition between two systems;
the old PMP on the one hand, and on the other hand the more recent
COP/COPR/Annual Report (for PEPFAR activities) and the OP (for other programs).
Given this transition situation and our on-going responsibility for cost-effective
management, USAID/Malawi believes that the overall goal of this recommendation
(responsible and adequate performance monitoring) can best be accomplished as
proposed.

To ensure implementation of this intention behind this recommendation, both the
mission's newly hired Strategic Information (SI) PEPFAR advisor and the mission's M&E
specialist in the Program Office will be tasked to ensure that all indicators for PEPFAR
activities will be regularly monitored.

Recommendation No. 2: We recommend that USAID/Malawi develop formal
procedures for 1) reviewing and providing prompt feedback concerning quarterly
reports and 2) following up with partners to ensure that corrective actions are
taken related to data quality.

USAID/Malawi agrees with this recommendation. The ability of the HPN Team to
consistently review quarterly reports and provide feedback to partners has in the past
been adversely affected by two issues: 1) low levels of Operating Expense (OE) budget
that negatively impacted the Mission's ability to conduct site visits and 2) staffing ceilings
that kept the size of the HPN Team to a restrictive minimum. Both issues have been
resolved, and the new staffing pattern and OE relief will facilitate stronger monitoring and
intensive follow up of reporting by partners.

The position of SI Advisor for PEPFAR has now been filled by a USPSC, and the
incumbent has direct responsibility for data and target issues and monitoring. The
position descriptions of all HPN Team members will be updated by end of October, 2007
to incorporate the responsibilities of reviewing quarterly reports, providing feedback and
following up corrective actions. In addition, HPN Team members' work objectives will be
revised by end of October, 2007 to reflect this responsibility, and yearly employee
evaluation reports (EERs) will provide feedback on each employee's performance with
regard to monitoring partners' quarterly reports.

The HPN Team will institute new procedures for reviewing quarterly reports, providing
feedback to partners; ensuring corrective actions are taken and verifying data in the
semiannual and annual reports. The procedures will systematically include:

1. The SI Advisor will send revised instructions to partners on completing narrative
   quarterly reports and data-based semiannual and annual reports by November, 2007.
2. The SI Advisor will prepare a schedule of quarterly, semiannual and annual report
   review meetings with partners by end of October 2007.
3. The SI Advisor will update internal record of reports received each quarter


                                                                                           17
                                                                               APPENDIX II


4. CTO/Activity Managers will provide written feedback on quarterly reports to partners
   within 10 working days and put in partner communications file.
5. CTO/Activity Managers will schedule partner meeting within 30 days after sending
   feedback to discuss report, when determined necessary based on the concerns
   identified in the quarterly reports and the feedback memos.
6. CTO/Activity Managers will identify follow-up steps to issues raised in the quarterly
   reports at partner meetings and agree on a timeline on when these would be
   addressed.
7. The SI Advisor will update internal records for tracking follow-up steps
8. The CTO/Activity managers will verify that follow-up steps have been incorporated
   into the next quarterly report.

These procedures will be put in writing and made available in the HPN office data quality
files and all HPN Team members will receive in-house training in the procedures by
December, 2007.

Recommendation No. 3: We recommend that USAID/Malawi establish a plan to
conduct regular site visits of partners' activities and validate the President's
Emergency Plan for AIDS Relief partners' data during those site visits.

USAID/Malawi agrees with this recommendation and is already taking steps to address
this issue. The SI Advisor in collaboration with CTO and Activity Managers will prepare a
schedule of site visits to validate partners' data by end of November 2007.

In order to facilitate the process of properly validating the partners' data, three members
of USAID/Malawi recently completed a Data Quality Workshop in Johannesburg, South
Africa. The team of three will replicate this workshop for partners to strengthen
monitoring and evaluations systems and to ensure there is a common understanding of
program-level indicators by end of November 2007.

The SI Advisor in collaboration with the Mission Monitoring and Evaluation Officer will
adapt tools for performing the data validation from the Measure Evaluation Tool by end
of October 2007. HPN Team members will receive in-house training in the use of these
tools and responsibilities for site visits and data quality validation. This internal training
will be completed by end of November, 2007. It will be followed up by a schedule and
site visits to all partners before end April 2008 to verify partner data.

During the site visits, the quality of reported program-level data for key indicators will be
assessed by starting at the source document and ensuring the data is correctly
captured, aggregated and transmitted to next levels. Based on the findings a data
validation report will be prepared with corrective actions identified. Partners will report
back on the implementation of corrective actions in their quarterly reports. Oversight and
supervision to ensure that site visits including data quality validation are performed
consistently and accurately will be provided by the HPN Team Leader in collaboration
with the SI Advisor and documented in trip reports.

Recommendation No. 4: We recommend that USAID/Malawi conduct data quality
assessments for its Emergency Plan indicators. Including verification of partners'
field data.




                                                                                           18
                                                                               APPENDIX II


As outlined in the response to recommendation 3, USA/D/Malawi agrees with this
recommendation. USAID/Malawi is planning a Mission-wide data quality assessment to
include Emergency Plan indicators and verification of partners' field data. The
assessment should be completed by the end of October, 2007. The verification of
partner's field data will also continue to be conducted as part of the regular field visits by
the HPN Team.

Recommendation No. 5: We recommend that USAID/Malawi review data collecting
methodology of its Emergency Plan partners and restate the actual data for FY
2006, as necessary.

USAID/Malawi agrees with this recommendation. Given the pre-requisite steps outlined
in responses to recommendation 3 and 4 above, we expect to complete the review of
data collection methodology with partners by April 2008. At the Data Quality Workshop
to be held in November 2007(see response to recommendation 3), partners will finalize
their data collection plans. Partner data collection methodology will be reviewed as part
of the data validation site visits discussed in the response to recommendation three.
During the data validation site visits, data for FY 2006 (as well as FY 2007) will be
verified and any corrections will be restated in the annual report by April 2008.

Recommendation No. 6: We recommend that USAID/Southern Africa take
measures to assure that the standard provision for equal protection of the law for
faith-based and community organizations is included in all agreements, contracts
and grants.

USAID/Southern Africa disagrees with the above recommendation because the
provision titled "EQUAL PROTECTION OF THE LAWS FOR FAITH-BASED AND
COMMUNITY ORGANIZATIONS" is dated February 2004. However, it was not until
June 14, 2006, that it was incorporated into ADS 303, Mandatory Standard Provisions
for U.S. nongovernmental Recipients. Therefore, awards made prior to June 2006 do not
contain this provision. The Regional Contracting Office (RCO) has included this
provision in all agreements and contract award on or after June 2006.

The RCO did not receive direction from OAA/Washington to amend existing awards
(pre-2006) to include this provision. The Policy Division in OAA/Washington will be
contacted for clarification if awards made prior to June 2006, should be modified to
include the provision. If so, the RCO will take steps to modify the agreements consistent
with RIG recommendations.




                                                                                           19
                                                                               APPENDIX III


                 Table A-1. Summary of Reviewed Results


                                                      FY06         FY06         Percentage
                       Results                        Target      Reported       Achieved
 Number of pregnant women who received HIV
 counseling and testing for Prevention of
 Mother-to-Child Transmission (PMTCT) and               4,620        10,104           219%
 received their test results
 Number of pregnant women provided with a
 complete course of antiretroviral prophylaxis in
 a PMTCT setting                                          420            448          107%
 Number of individuals trained to promote
 HIV/AIDS prevention through abstinence
 and/or being faithful                                 14,289        18,029           126%
 Number of individuals provided with HIV-
 related palliative care (excluding TB/HIV)10          63,580            N/A            N/A
 Number of orphans and vulnerable children
 (OVC) served by an OVC program10                      30,000            N/A            N/A
 Number of individuals who received
 counseling and testing for HIV and received
 their test results                                   122,376       152,886           125%
 Total number of health workers trained to
 deliver antiretroviral therapy (ART) services,
 according to national or international standards
 (includes PMTCT+, extending treatment to                 620            641          103%
 HIV-infected mothers, their children, and their
 partners)11
Note: N/A = not applicable.




10
  Data are not reliable to accept results. 

11
  Actual data reported for FY 2006 were erroneous. The actual achievement reported here was 

obtained from supporting documents during the audit fieldwork. 



                                                                                           20
U.S. Agency for International Development 

        Office of Inspector General 

      1300 Pennsylvania Avenue, NW 

          Washington, DC 20523 

            Tel: (202) 712-1150 

            Fax: (202) 216-3047 

            www.usaid.gov/oig
